                              FEDERAL MARITIME COMMISSION
                                  Office of Inspector General
                                 Washington, DC 20573-0001

                                       March 15, 2012


Office of Inspector General



TO:              Chairman Richard A. Lidinsky, Jr.
                 Commissioner Joseph E. Brennan
                 Commissioner Rebecca F. Dye
                 Commissioner Michael A. Khouri
                 Commissioner Mario Cordero


FROM:            /Adam R. Trzeciak/
                 Inspector General

SUBJECT:         IPERA Reporting


On July 22, 2010, the President signed into law the Improper Payments Elimination and
Recovery Act (IPERA; Pub. L. 111-204). IPERA amended the Improper Payments
Information Act of 2002 (IPIA; Publ. L. 107-300). Each agency inspector general is
tasked with reviewing improper payment reporting in their agency’s annual Performance
and Accountability Report (PAR) to determine if the agency is in compliance with IPIA.
If an agency does not administer programs and/or activities that may be susceptible to
significant improper payments, the Office of Management and Budget recommends that
the IG submit a short letter to the agency head, Congress, GAO and OMB stating that it
did not have anything to review under IPERA. Reports or letters are due within 120 days
of the PAR issuance date (i.e., March 15, 2012).

Improper payments are payments that should not have been made or that were made in an
incorrect amount (including overpayments or underpayments); and includes any payment
to an ineligible recipient, any payment for an ineligible good or service not received, and
any payment that does not account for credit for applicable discounts.

The Federal Maritime Commission’s Office of Inspector General reviewed the agency’s
most recent PAR (November 15, 2011) for compliance with IPIA. FMC management
reported in the PAR that the agency does not administer programs or activities that may
be susceptible to significant improper payments, and considers all of its payments to be
low risk for improper payment. Consequently, the OIG did not review any transactions
to assess IPIA compliance.
